              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Waste Reduction Plans for the
Advanced Mixed Waste Treatment
Project at the Idaho National
Engineering and Environmental
Laboratory




DOE/IG-0611                                 July 2003
                              Department of Energy
                                  Washington, DC 20585
                                  July 7, 2003



MEMORANDUM FOR THE$ECRETARY

FROM:
                           e
                           -
                          'Gregory H. Friedman
                           Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Waste Reduction Plans for
                          the Advanced Mixed Waste Treatment Project at the Idaho
                          National Engineering and Environmental Laboratory"


BACKGROUND

Since the early 1970s, the Department of Energy has stored about 65,000 cubic meters of
transuranic (TRU) waste and mixed low-level waste at the Idaho National Engineering
and Environmental Laboratory (INEEL), near Idaho Falls, Idaho. Most of the waste was
generated at the Rocky Flats Plant near Denver, Colorado, and was shipped to the INEEL
in drums and boxes. The preponderance of waste is stored on asphalt pads and covered
with soil to form earthen-covered berms.

In 1996, the Idaho Operations Office entered into a contract with BNFL Inc., to construct
the Advanced Mixed Waste Treatment Facility to characterize, treat, and package
INEEL's waste. The waste will eventually be transported to the Waste Isolation Pilot
Plant (WIPP), near Carlsbad, New Mexico, for final disposal. One of the primary goals
of the BNFL contract was to significantly reduce the volume of waste during the
treatment process so as to reduce the overall cost of transportation and disposal. To be
specific, the contract required that the waste in its original volume (65,000 cubic meters)
be reduced after treatment to about 22,750 cubic meters, or no more than 35 percent of
the original volume. BNFL is to be penalized monetarily if the volume of post-treated
waste does not meet this performance objective. The current contract value for this effort
is $912 million.

The objective of this audit was to determine whether BNFL will achieve the Department's
volume reduction goal.

RESULTS OF AUDIT

Based on current plans, the volume of Idaho's waste to be shipped to WIPP will only
decrease by about six percent. Initially, BNFL is to employ a variety of sorting,
repackaging, and compacting techniques to reduce the 65,000 cubic meters by more than
half. However, the treated waste will then be placed in "over-pack" disposal




                                @     Printed with soy ink on recycled paper
containers, which will increase the volume to about 61,000 cubic meters. Thus, the
overall volume reduction will be minimal, certainly far less than the Department's goal.

The Idaho Operations Office's planning and oversight for the waste reduction project, in
our judgment, was inadequate, For example, Idaho officials were unaware that the
amount of waste to be shipped had increased to 61,000 cubic meters until November
2002. This was nearly three years after decisions regarding the use of over-pack
containers had been made. Additionally, the contract with BNFL was unclear as to
exactly how waste reduction would be measured, and reduction goals and plans were not
modified to reflect changing assumptions. As a result, absent a major change in program
direction, WlPP will receive substantially more waste than originally planned, causing
the Department to spend $205 million more than expected to dispose of Idaho's waste.

We recommended that the Assistant Secretary for Environmental Management develop a
contingency plan reflecting the greater-than-anticipated volume of waste to be shipped to
WIPP. We also recommended that the Manager, Idaho Operations Office seek to clarify
the waste reduction goals and measures contained in the BNFL contract.

MANAGEMENT REACTION

Environmental Management agreed with the finding and recommendations and indicated
that it had previously identified all of the issues in past reviews. Management's verbatim
response is included as Appendix 3.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Manager, Idaho Operations Office
WASTE REDUCTION PLANS FOR THE ADVANCED MIXED
WASTE TREATMENT PROJECT AT THE IDAHO NATIONAL
ENGINEERING AND ENVIRONMENTAL LABORATORY

TABLE OF
CONTENTS



               Waste Reduction Goal

               Details of Finding.......................................................................   1

               Recommendations and Comments ..........................................                     .4


               Appendices

                1 . Prior Audit Reports................................................................    5

               2. Objective, Scope, and Methodology .....................................                  6

               3. Management Comments .......................................................              7
WASTE REDUCTION GOAL

Waste Reduction   Based on current plans, BNFL will not meet the Department of
Plans             Energy's (Department) goal of reducing waste volume by 65 percent
                  using the Advanced Mixed Waste Treatment Facility (AMWTF).
                  Specifically, based on BNFL's most recent plan, INEEL would ship
                  61,000 cubic meters to WIPP for disposal, a reduction of only six
                  percent.

                  The Department issued a Record of Decision for the AMWTF in 1999.
                  At that time, the preferred alternative for treating the 65,000 cubic
                  meters included repackaging, incineration, supercompaction, and
                  encapsulation. By incinerating approximately 14,300 cubic meters and
                  supercompacting approximately 48,000 cubic meters, BNFL estimated
                  it could reduce the original waste volume by 65 percent, to 22,750
                  cubic meters, after encapsulation and before containerization.
                  Containerization was estimated to increase the overall volume to about
                  30,000 cubic meters. Shortly after the Record of Decision was signed,
                  a legal suit challenged the Department's plan to operate the incinerator.
                  The Department chose to settle the lawsuit by eliminating the
                  incinerator as a treatment option. Although this meant that 14,300
                  cubic meters would no longer be incinerated, other process
                  improvements implemented at about the same time were largely
                  offsetting, and significant waste reduction was still feasible.

                  A secondary effect of the decision not to incinerate any of the waste,
                  however, was that INEEL's waste would need to be transported and
                  disposed of using over-pack containers. Use of the over-packs is
                  related to the Department's 1995 decision to "blend-up" INEEL's mixed
                  low-level waste - which, at that time was "orphan" waste with no
                  defined disposal path - with transuranic (TRU) waste in a single
                  shipping container. As originally conceived, the blend-up involved
                  incinerated mixed low-level waste constituents, and over-packs were
                  not necessary. Without incineration, however, the mixed low-level
                  components of the waste must be transported and disposed of in the
                  over-packs to meet WIPP waste acceptance criteria. INEEL's 65,000
                  cubic meters of waste includes 39,500 cubic meters of TRU waste and
                  25,400 cubic meters of mixed low-level waste.

                  Currently, BNFL estimates that sorting, repackaging, and compacting
                  will reduce INEEL's waste volume from 65,000 to 30,560 cubic meters,
                  or 53 percent, before the waste is containerized for shipment to WIPP.
                  However, once the waste is placed in the over-packs, BNFL estimates
                  that the volume will increase from 30,560 to 6 1,000 cubic meters.



Page 1                                                                 Details of Finding
                       In September 2001, we reported' that Idaho's blend-up strategy would
                       needlessly add to the WIPP facility and cost the Department about
                       $1 19 million more than other alternative strategies, such as disposing of
                       the mixed low-level waste at the Hanford site near Richland,
                       Washington. We recommended that the Department not blend-up the
                       waste and, instead, dispose of the mixed low-level waste at Hanford.
                       The Department did not concur with our finding and recommendation,
                       indicating that our cost savings estimate was overstated. It should be
                       noted, however, that our estimate at the time was based on Department
                       data showing that the volume of mixed low-level waste would be
                       reduced by 65 percent. As our current audit has shown, that degree of
                       volume reduction will not occur. Therefore, our 2001 savings estimate
                       may have been significantly understated.

Department Oversight   We found that the Idaho Operations Office's planning and oversight for
                       the waste reduction project was inadequate. For example, Department
                       officials were unaware that BNFL planned to ship 61,000 cubic meters
                       of waste to WIPP until November 2002, nearly three years after the
                       lawsuit was settled and the decision to use over-packs was made. Prior
                       to November 2002, Idaho believed that BNFL planned to ship 30,560
                       cubic meters to WIPP, as shown in BNFL's process flow chart. Earlier
                       involvement by Idaho could have led to a re-examination of waste
                       reduction alternatives and costs.

                       Further, although volume reduction is a critical part of the BNFL
                       contract, Idaho did not ensure that BNFL's contract terms were clear as
                       to how the reduction should be measured. The contract states that the
                       price paid for treatment of the 65,000 cubic meters will be reduced by
                       one percent for every percentage point by which the actual volume
                       reduction is less than the 65 percent volume reduction requirement, and
                       an additional one percent for each percentage point by which the actual
                       volume reduction is less than 50 percent. The contract does not state
                       whether the volume reduction should be measured before or after the
                       waste is packaged for shipment. According to BNFL and Idaho
                       management, waste reduction should be measured after the initial
                       sorting, repackaging, and compaction, but before packaging for shipment
                       to WIPP. Based on our audit, we concluded that such an interpretation
                       conflicts with the intent and purpose of the AMWTF contract and the
                       Department's waste reduction goals. Moreover, it negates the benefits
                       derived from repackaging and compaction, and provides no incentive for


                       'DOEIIG-0527, Idaho Operations Ofice Mixed Low-Level Waste Disposal Plans,
                       September 2001.


Page 2                                                                          Details of Finding
         BNFL to minimize the volume of waste actually shipped to WIPP. In
         our judgment, this lack of clarity makes holding the contractor
         accountable for performance nearly impossible.

         Other aspects of Idaho's contract administration were also of concern.
         For example, Idaho modified BNFL's waste reduction clause in January
         2000; however, the modification did not clarify the measurement
         process. The modification stated that the intent of the volume reduction
         requirement was to reduce the cost of transportation and disposal to the
         Government; however, an "escape" clause allows that no penalty will
         be assessed if the contractor can demonstrate that failure to meet the
         reduction will cause no harm to the Government. The purpose of this
         clause is not clear and it appears to further dilute the contractor's
         accountability for waste reduction.

         We also noted that Idaho had not modified the contract to reflect
         current assumptions. For example, no modifications were made based
         on the elimination of the option to incinerate waste or the requirement
         that all the waste be encapsulated. In September 2002, BNFL formally
         requested such changes and that the 65 percent reduction requirement
         apply to only 45,500 cubic meters of waste, due to the loss of the
         incinerator option. BNFL's request may represent an opportunity for
         Idaho to revisit waste reduction alternatives.

Impact   Based on BNFL's current plans, WIPP will receive 61,000 cubic meters
         of waste from INEEL. However, WIPP's primary planning document,
         the July 2002 National TRU Waste Management Plan, identifies a total
         expected volume of 110,000 cubic meters of waste from all sources,
         including 36,000 cubic meters from the AMWTF project. If, instead,
         INEEL ships 61,000 cubic meters, WIPP will have to increase its
         expected contact-handled TRU waste receipts by 25,000 cubic meters.
         This would increase the total volume of waste to be disposed at WIPP
         by 23 percent and would almost certainly have profound impacts on the
         operational capabilities and assumptions at WIPP.

         Furthermore, the additional volume could increase disposal costs by as
         much as $205 million. We made this estimate by multiplying the
         additional 25,000 cubic meters by the unit disposal cost of $8,177 per
         meter presented in the July 2002 National TRU Waste Management
         Plan. Environmental Management disagreed with this cost estimate,
         suggesting that the actual cost to dispose of 25,000 cubic meters of
         waste would be $57.5 million. However, we noted that Environmental
         Management's estimate was not based on the life cycle costs of TRU
         waste disposal operations. According to the TRU plan, the variable

Page 3                                                       Details of Finding
--




                           waste component will fluctuate as different volumes of waste are
                           received over the life cycle of operations. The National TRU Waste
                           Management Plan incorporated this time-phasing of variable costs.
                           Environmental Management's analysis did not. Accordingly, we
                           relied upon the methodology prescribed in the National TRU Waste
                           Management Plan.


     RECOMMENDATIONS       We recommend that the Assistant Secretary, Office of
                           Environmental Management:

                              1. Prepare a contingency plan for disposal that would enable
                                 WIPP to dispose of more waste from INEEL than currently
                                 planned; and,

                              2. Re-evaluate the costs and benefits of INEEL's mixed low-
                                 level waste blend-up strategy.

                           We recommend that the Manager, Idaho Operations Office:

                              3. Take steps to improve direct technical oversight of the BNFL
                                 contract; and,

                              4. Determine whether contract penalties against BNFL are
                                  appropriate.


     MANAGEMENT REACTION   Management agreed with the findings and recommendations.
                           Management's verbatim comments are included as Appendix 3.




     Page 4                                             Recommendations and Comments
Appendix I

                                    PRIOR AUDIT REPORTS




         Idaho Operations Office Mixed Low-Level Waste Disposal Plans (DOE/IG-0527,
         September 2001), concluded that the Department could save about $1 19 million by not
         blending mixed low-level waste with transuranic waste at the INEEL. Specifically, the
         65,000 cubic meters of waste at INEEL consists of about 39,500 cubic meters of
         transuranic waste that Idaho plans to blend with 25,400 cubic meters of mixed low-level
         waste in order to create a final waste product of transuranic waste. The audit
         recommended not blending the waste, and instead, disposing of the mixed low-level waste
         at Hanford.

         Waste Treatment Plans at the Idaho National Engineering and Environmental Laboratory
         (DOE/IG-0440, February 1999), concluded that waiting until the Advanced Mixed Waste
         Treatment Facility was available to process 3,100 cubic meters of waste would be more
         economical and reduce the environmental risks to Laboratory employees.




Page 5                                                                           Prior Audit Reports
Appendix 2

OBJECTIVE     The objective of this audit was to determine whether BNFL will
              achieve the Department's volume reduction goal.


SCOPE         The audit was performed from October 3 1,2002, to January 15,2003,
              at the Idaho Operations Office and BNFL Inc., in Idaho Falls, Idaho.
              The audit scope was limited to the planned waste volume reduction in
              BNFL's Advanced Mixed Waste Treatment Facility since the inception
              of the contract in 1995.


METHODOLOGY   To accomplish the audit objective, we:

                  0   Obtained and reviewed planning documents for the activities
                      under audit, including the Record of Decision for the Advance
                      Mixed Waste Treatment Project;

                  0   Researched Federal and Departmental regulations;

                  0   Reviewed findings from prior audit reports regarding the
                      Advanced Mixed Waste Treatment Project;

                  0   Reviewed the BNFL contract with the Department for the
                      Advanced Mixed Waste Treatment Project (No. DE-AC07-
                      97ID13481);

                  0   Assessed internal controls and performance measures
                      established under the Government Performance and Results Act
                      of 1993; and,

                  0   Interviewed key personnel in the Idaho Operations Office and
                      the Office of Environmental Management.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Specifically, we
              tested controls with respect to the Department's planning process for
              waste management activities. Because our review was limited, it would
              not necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We did not rely on automated
              data processing equipment to accomplish our audit objective. We held
              and exit conference with Department management on June 30,2003.


Page 6                                         Objective, Scope, and Methodology
Appendix 3
  vot   I. 7325 a
    (a a91
  EFG :07-%'!

  United States Government                                                                 Department of Energy

  Memorandum
           DATE:    J u n e 18, 2003

     REPLY TO
     ATTN OF:       EM-3 (Paul Golan, 202-586-0738)

                    Draft Audit Report on Waste Reduction Pluns for the Advanced Mixed Waste Treutmefrt
                    Project at the Idaho National Engineeriitg und Environmental Laboratoty
              To    Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services

                    This is in response to your March 17,2003, memorandum requesting the Ofice of
                    Environmental Management (EM) to review and comment on the subject Office of Inspector
                    General (OIG) draA audit report.

                    EM agrees with the findings of the OIG. EM had previously identified all of the issues in past
                    reviews.

                       Recommendation 1: That the Assistunt Secretury-for Environmental Managemenl prepare
                       u contingency plan for disposul thut would eitabk? WIPP to dispose of more wastefrom
                       IiVEIX. than currentlyplanned. Accepted.

                       Recornmendation 2: That the Assistant Secreturyfor Environmental hfunugement re-
                       evaluate lhe costs and benefits of AQEEL 's mired low-level waste blend-up strategy.
                       Accepted.

                       Recommendation 3: That the Munugtr, Idaho Operations ODce take steps to intprove
                       direct technical oversight of BNFL contract. hcccptcd.

                       Recommendation 4: That the Manager, Idaho Operations Ofice determine whether
                       contruct penulties aguinst RNFL are appropriate. Accepted.

                    Thank you for the opportunity to review your draft report and to have our comments included
                    in your final report. ICyou have any further questions, please call me at (202) 586-7709, or
                    Mr. Mark W. Frei, Acting Deputy Assistant Secretary, Oftice of Project Completion, at
                    (202) 586-0370.




                                                    &fc.-
                                                    L/
                                                          Jessie Hi Roberson
                                                          Assistant Secretary for
                                                           Envi ronmcntal Managcmcnt




Page 7                                                                                         Management Comments
                                                                              IG Report No. : DOE/IG-06 11

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                           Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586- 1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
